Nos. 19-161

In the Supreme Court of the United States
Department of Homeland Security, et al.,
Petitioner,
v.
Vijayakumar Thuraissigiam,
Respondent.

On Writs of Certiorari to the United States
Court of Appeals for Ninth Circuit

CERTIFICATE OF COMPLIANCE
OF INTERNATIONAL LAWYERS
AS AMICUS CURIAE

Curtis Doebbler
Counsel of Record
The Law Office of Dr Curtis FJ
Doebbler
P.O. Box 10100
San Antonio, TX 78210
(210) 780-0054
cdoebbler@gmail.com
Counsel for Amicus Curiae

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the amicus curiae of
International Lawyers filed in the above-captioned matter contains 5,359 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d). I declare under penalty of perjury that the foregoing is true and correct.
Dated: January 22, 2020
Respectfully submitted,
/s/ Curtis Doebbler
.
Curtis Doebbler
Counsel of Record
The Law Office of Dr Curtis FJ Doebbler
P.O. Box 10100
San Antonio, TX 78210
(210) 780-0054
cdoebbler@gmail.com

